SAMPLE CERTIFICATE OF COMPLIANCE WITH WORD COUNT

CERTIFICATE OF COMPLIANCE
No...
Carline Curry

Petitioner

vs.
CITY OF MANSIELD ET AL

As Required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains _4104____words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of peijury that the foregoing is true and correct.
Executed on

QfVy

Hib

,2021

Carline Curry (Pro Se)
606 Bowman Street
Mansfield, Ohio 44903
567-274-9130

